HHS/OIG Audit:"Review of Connecticut Claims for Title IV-E Retroactive Adjustments,"(A-01-01-02501)
Department of Health
and Human Services
"Review of Connecticut Claims for Title IV-E Retroactive Adjustments,"
(A-01-01-02501)
February 12, 2002
Complete
Text of Report is available in PDF format (668 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if retroactive foster care adjustments were supported by Federal regulations.
The Connecticut Department of Children and Families (DCF) claimed a total of $45.2 million ($22.6 million Federal share)
in retroactive foster care adjustments for the quarters December 1996 to September 1999.  The DCF was not able to
provide required support for $3.92 million ($1.96 million Federal share) in retroactive foster care adjustments made under
its prior computer system for quarters December 1996 through December 1997.  Also, DCF was unable to provide individual
retroactive adjustments to support costs totaling $22.54 million ($11.27 million Federal share) for the first quarter under
its current system.  We recommended that: (1) retroactive adjustments continue to be supported by detailed reports
and that DCF incorporate this requirement in their written procedures; (2) the Federal share of $1.96 million claimed under
the prior system be returned to ACF; and (3) the DCF work with ACF to reach a workable solution for the $22.54 million
($11.27 million Federal share) that we set aside.